<html>
<title> - OPPORTUNITIES TO INCREASE WATER STORAGE AND CONSERVATION THROUGH REHABILITATION AND DEVELOPMENT OF WATER SUPPLY INFRASTRUCTURE, AND TESTIMONY ON PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-330]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-330

   OPPORTUNITIES TO INCREASE WATER STORAGE AND CONSERVATION THROUGH 
  REHABILITATION AND DEVELOPMENT OF WATER SUPPLY INFRASTRUCTURE, AND 
                    TESTIMONY ON PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on

                                S. 1570
                                S. 1932
                                S. 2044

                               __________

                             JULY 18, 2019

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-841 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

                    Subcommittee on Water and Power

                        MARTHA McSALLY, Chairman

JOHN BARRASSO                        CATHERINE CORTEZ MASTO
JAMES E. RISCH                       RON WYDEN
BILL CASSIDY                         MARIA CANTWELL
CORY GARDNER                         BERNARD SANDERS
LAMAR ALEXANDER


                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
             Lane Dickson, Senior Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
McSally, Hon. Martha, Subcommittee Chairman and a U.S. Senator 
  from Arizona...................................................     1
Gardner, Hon. Cory, a U.S. Senator from Colorado.................     3
Risch, Hon. James E., a U.S. Senator from Idaho..................   106

                               WITNESSES

Burman, Hon. Brenda, Commissioner, Bureau of Reclamation, U.S. 
  Department of the Interior.....................................    47
Brown, Marshall P., General Manager, Aurora Water, and on behalf 
  of the WateReuse Association...................................    60
Kassen, Melinda, Senior Counsel, Theodore Roosevelt Conservation 
  Partnership....................................................    72
Hipke, Wesley, Idaho Managed Recharge Program Manager, Idaho 
  Department of Water Resources..................................   107
Noble, Wade, Attorney for Yuma (Arizona) Area Irrigation 
  Districts, Noble Law Office, Family Farm Alliance and National 
  Water Resources Association....................................   113

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Agribusiness & Water Council:
    Letter for the Record........................................    14
Albuquerque Bernalillo County Water Utility Authority, et al.:
    Letter for the Record........................................    15
Association of California Water Agencies:
    Letter for the Record........................................    83
Brown, Marshall P.:
    Opening Statement............................................    60
    Written Testimony............................................    62
Burman, Hon. Brenda:
    Opening Statement............................................    47
    Chart entitled ``July 2019 Reclamation West-Wide Summary 
      Precipitation and Storage Figures''........................    49
    Chart entitled ``July 2018 Reclamation West-Wide Summary 
      Precipitation and Storage Figures''........................    52
    Written Testimony............................................    55
    Responses to Questions for the Record........................   129
CalDesal:
    Letter for the Record........................................    84
California American Water:
    Letter for the Record........................................    86
California Association of Sanitation Agencies:
    Letter for the Record........................................    18
California Farm Bureau Federation:
    Letter for the Record........................................    19
Cantwell, Hon. Maria:
    Chart entitled ``U.S. Seasonal Drought Outlook--Drought 
      Tendency During the Valid Period'' by David Miskus, NOAA/
      NWS/NCEP/Climate Prediction Center, released on July 18, 
      2019.......................................................   124
CleanWater Services:
    Letter for the Record........................................    20
Colorado Water Congress:
    Letter for the Record........................................    88
Columbia Basin Development League:
    Letter for the Record........................................    21
Contra Costa Water District:
    Letter for the Record........................................    22
Eastern Municipal Water District:
    Letter for the Record........................................    23
Family Farm Alliance:
    Letter for the Record........................................    25
Feinstein, Hon. Dianne:
    Statement for the Record.....................................     4
Friant Water Authority:
    Letter for the Record........................................   136
Gallego, Hon. Kate:
    Letter for the Record........................................    27
Gardner, Hon. Cory:
    Opening Statement............................................     3
Hipke, Wesley:
    Opening Statement............................................   107
    Written Testimony............................................   110
    Responses to Questions for the Record........................   133
Idaho Water Users Association:
    Letter for the Record........................................    90
Irrigation & Electrical Districts Association of Arizona:
    Letter for the Record........................................    29
Irvine Ranch Water District:
    Letter for the Record........................................    30
Kassen, Melinda:
    Opening Statement............................................    72
    Written Testimony............................................    74
    Responses to Questions for the Record........................   131
McSally, Hon. Martha:
    Opening Statement............................................     1
(The) Metropolitan Water District of Southern California:
    Letter for the Record........................................    92
Monterey Peninsula Water Management District:
    Letter for the Record........................................    32
Municipal Water District of Orange County (California) :
    Letter for the Record........................................    33
National Association of Water Companies:
    Letter for the Record........................................    93
National Water Resources Association:
    Letter for the Record regarding S. 2044......................    34
    Letter for the Record regarding S. 1932......................    95
Noble, Wade:
    Opening Statement............................................   113
    Written Testimony............................................   115
Northern Colorado Water Conservancy District:
    Letter for the Record........................................    97
Placer County (California) Water Agency:
    Letter for the Record........................................    35
Risch, Hon. James E.:
    Introduction.................................................   106
Salt River Project:
    Letter for the Record........................................    36
San Diego County (California) Water Authority:
    Letter for the Record........................................    38
San Francisco Public Utilities Commission:
    Letter for the Record........................................    40
San Joaquin River Exchange Contractors Water Authority:
    Letter for the Record........................................    41
(The) Santa Clara Valley Water District:
    Letter for the Record........................................    98
Southern Nevada Water Authority:
    Letter for the Record........................................   100
South Valley Water Association:
    Letter for the Record........................................    42
Tehama Colusa Canal Authority:
    Letter for the Record........................................    43
Trout Unlimited, et al.:
    Letter for the Record........................................   138
Truckee-Carson Irrigation District:
    Letter for the Record........................................    44
Truckee Meadows Water Authority:
    Letter for the Record........................................   101
Water Infrastructure Network:
    Letter for the Record........................................   103
Western Growers:
    Letter for the Record........................................    46

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
hearings/2019/7/subcommittee-on-water-and-power-hearing

 
   OPPORTUNITIES TO INCREASE WATER STORAGE AND CONSERVATION THROUGH 
  REHABILITATION AND DEVELOPMENT OF WATER SUPPLY INFRASTRUCTURE, AND 
                    TESTIMONY ON PENDING LEGISLATION

                              ----------                              


                        THURSDAY, JULY 18, 2019

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:49 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Martha 
McSally, presiding.

           OPENING STATEMENT OF HON. MARTHA MCSALLY,
                   U.S. SENATOR FROM ARIZONA

    Senator McSally. The hearing of the Senate Energy and 
Natural Resources Subcommittee on Water and Power will come to 
order.
    I first want to apologize for being tardy. I was trying to 
be in a few places at once. Thanks for your patience.
    Throughout the West, water is central to everything we do. 
The infrastructure to provide and protect this water supply 
took centuries to build and has allowed our cities to grow and 
our farms to prosper. Without these dams and canals, recharge 
basins and reclaimed water plants, the American West would not 
be a home, bread basket, economic engine or worldwide 
destination that it is today. It has taken tremendous foresight 
and major investment to develop the water systems that are the 
backbone of our western communities and businesses, and they 
have been great investments, by any standard.
    In my home State of Arizona, what started as a $10 million 
federal investment in the Salt River Project in 1903 laid the 
groundwork for today's Phoenix metropolitan area which now 
contributes $250 billion in GDP to the nation. Earlier this 
year, I toured all 15 counties in Arizona in my first 90 days 
as a Senator. I saw firsthand how these major investments 
shaped the state through Hoover Dam to Lake Powell, Salt River 
Project to the Central Arizona Project. Arizona's past and 
future relies entirely on how we deliver water, and federal 
investment in these projects is therefore critical.
    When I visited Yuma County in January local water experts, 
including Wade Noble, one of our witnesses here today, laid out 
to me how the water districts responsibly maintain and manage 
Imperial Dam and related infrastructure which supplies water to 
both California and Arizona's massive agriculture economy.
    Irrigation projects have unleashed Arizona's $23 billion 
agriculture economy. The return on these investments for our 
nation is clear. It is now our turn to step up and make the 
next round of investments in our water infrastructure. We must 
ensure our existing facilities keep running and develop the 
next generation of projects that will provide water security 
for the next century. The bipartisan bills before us today will 
do just that.
    My bill, S. 2044, the Water Supply Infrastructure 
Rehabilitation and Utilization Act, which I am proud to have 
worked side by side with Senator Sinema to develop, will make 
huge strides in addressing the significant needs at the 
existing Bureau of Reclamation assets. The beneficiaries of 
these assets, local irrigators and water districts, are 
responsible for covering the costs of regular operations and 
maintenance of the infrastructure. They do so by building these 
costs into rates that water users pay throughout the year.
    As with any large-scale infrastructure project, large 
capital upgrades are needed from time to time and they are 
beyond regular operation and maintenance. We call this 
extraordinary maintenance, and it is often accompanied with a 
price tag too high to fold into a single year of rates. For 
example, Imperial Dam has upwards of $50 million in needed 
renovations. Yet, because our water districts are just 
operators and not the actual owners of the federal 
infrastructure, they don't have access to many of the 
traditional financing tools needed to fund these critical 
repairs. This was something that Wade and the team in Yuma 
brought to my attention when I visited you there, and that has 
directly resulted in this legislation. So this is 
representative government in action.
    My bill addresses this by setting up an account within the 
Bureau of Reclamation (BOR) to fund extraordinary maintenance 
projects and allows operators to repay the cost, with interest, 
over a longer period of time. Importantly, my bill modifies 
Reclamation's existing extraordinary maintenance authority to 
provide greater transparency and control to Congress and to 
stakeholders so that this authority is actually utilized as 
originally intended to get these types of repairs done. The 
bill also establishes a pilot program to modernize reservoir 
operations and increase water storage at existing dams without 
any new construction.
    While my bill looks at the needs of existing 
infrastructure, S. 1932, the Drought Resilience and Water 
Supply Infrastructure Act, which I co-sponsored with Senators 
Gardner, Feinstein and Sinema, focuses on the need for new 
infrastructure. Nearly every basin in the West will require new 
storage and supply to provide drought resilience in the face of 
population and economic growth, increasing environmental 
demands and changing runoff regimes. But the needs and 
opportunities for developing new water resources are different 
for every community. S. 1932 recognizes that fact by creating a 
broad set of tools that allow water managers to keep all 
options on the table while developing their long-term strategy.
    We are in an exciting time, and we have a real opportunity 
to move forward on water supply solutions that benefit water 
users and ecosystems. Instead of knee-jerk reactions and false 
choices between water development and the environment that have 
permeated the debate in past decades, water users and 
conservation groups are coming together to develop 
comprehensive solutions.
    I look forward to continuing this constructive approach to 
water issues and look forward to hearing from our witnesses 
today, all of whom are doing the hard work on the ground to 
develop needed water infrastructure by promoting partnerships 
rather than conflict.
    We don't have a Ranking Member here today, do we have 
anyone else who wants to make a statement?
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you very much, Chairman McSally, for 
the opportunity to be here today and thanks to all the 
witnesses. I particularly want to welcome the two from 
Colorado, Mr. Marshall Brown and Ms. Melinda Kassen. Thank you 
very much for all of you being here today. And Mr. Wade Noble, 
every time you say Yuma County--I am from Yuma County.
    Senator McSally. I know.
    Senator Gardner. So, you know.
    Senator McSally. But Yuma County, Arizona, is better.
    Senator Gardner. Yuma County, Colorado, it is a little bit 
cooler in Yuma County.
    [Laughter.]
    Alright.
    Senator McSally. Wonderful, thanks a lot.
    Before turning to our witnesses, I ask unanimous consent to 
add a statement from Senator Feinstein in support of S. 1932 to 
the record--
    [The statement of support from Senator Feinstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. --along with letters of support from 18 
national and statewide water groups and 58 water districts and 
municipalities for S. 1932 and S. 2044. These include 
Agribusiness and Water Council of Arizona, Irrigation and 
Electrical Districts Associations of Arizona, Salt River 
Project, Cities of Phoenix and Safford, Pima County.
    Without objection they will be placed into the record.
    [Letters of support follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Alright, let's now turn to our witnesses.
    We have five great witnesses today to discuss water 
infrastructure and the three bills before us today. And I might 
add that nearly everyone on the panel here has Arizona roots, 
just saying.
    First up is the Honorable Brenda Burman, Commissioner of 
Reclamation.
    Next we will hear from Mr. Wade Noble, a water attorney 
from Yuma, a water ``sensei'' is what we like to call him, who 
represents a number of irrigation districts that rely on Bureau 
of Reclamation facilities and the Wellton-Mohawk Irrigation & 
Drainage District. He also serves in leadership and advisory 
positions with the Yuma County Agricultural Water Coalition, 
Agribusiness and Water Council of Arizona, National Water 
Resources Association (NWRA) and the Family Farm Alliance. What 
do you do in your free time, Wade? I am glad you could be here. 
Thanks for making the trip out from Arizona and for all the 
work you do for Yuma irrigators and water resource in our 
state.
    After that, we will hear from Mr. Marshall Brown, General 
Manager for Aurora Water in Colorado. He is also representing 
the WateReuse Association and I would note, he comes from 
Aurora by way of Scottsdale. So I know that we can trust him.
    Next we will hear from Ms. Melinda Kassen, Senior Counsel 
for the Theodore Roosevelt Conservation Partnership.
    And finally, Mr. Wesley Hipke, Managed Recharge Program 
Manager for the Idaho Department of Water Resources. Another 
Arizona transplant, I might add, having spent nearly 20 years 
in Arizona's Department of Water Resources.
    I really did not plan this, but it is great to have a lot 
of Arizona roots on the panel, even though you are now using 
your skills to help some other states.
    Commissioner Burman, it is good to see you again. Thanks 
for being here. You are recognized for five minutes.

   STATEMENT OF HON. BRENDA BURMAN, COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Burman. Thank you.
    Chairman McSally, Senator Gardner, members of the 
Subcommittee who are here with us, perhaps virtually, my name 
is Brenda Burman, Commissioner of the Bureau of Reclamation 
with the Department of the Interior. Thank you for providing me 
the opportunity to appear before you today.
    Before I begin my remarks, I would first like to, again, 
thank you and thank this Committee and your staff for their 
leadership and excellent quick work on the Colorado River 
Drought Contingency Plan Authorization Act this past spring. It 
was really incredible work and it is moving forward. In fact, 
just last week I was in San Diego for a signing ceremony where 
the International Boundary and Water Commission, both the 
Republic of Mexico section and the United States section, 
signed a joint report. This report describes how the United 
States and Mexico will protect Lake Mead elevations to benefit 
the Colorado River. This is really the last step in moving 
forward with our drought and scarcity plans for the Colorado 
River.
    It's a great accomplishment for cities, states, tribes and 
all the others who depend on the Colorado River and thank you.
    The Committee has my written statement, so I'll use my time 
to highlight some of the underlying areas where we think the 
Committee seeks to address in Senate bill 1932, the Drought 
Resiliency and Water Supply Infrastructure Act, Senate bill 
2044, the Water Supply Infrastructure Rehabilitation and 
Utilization Act, and Senate bill 1570, the Aquifer Recharge 
Flexibility Act.
    As the co-sponsors of these bills are aware, as a nation we 
need to invest in new and existing infrastructure. We need to 
invest in storage to increase water reliability, and we need to 
improve conveyance to secure our water supplies for future 
generations.
    Reclamation's dams and reservoirs, our water conveyance 
systems and power generation facilities are integral components 
of the nation's infrastructure and the economies of the Western 
states. This infrastructure is key to Reclamation's continued 
success. We operate just under 500 dams throughout 17 Western 
states. We impound 338 reservoirs with a total storage capacity 
of 140 million acre-feet. We are the largest wholesaler of 
water in the United States. The water we deliver irrigates ten 
million acres, so 20 percent of the farmers in the West, and 
provides drinking water to 31 million people.
    Reclamation is also the second largest hydropower producer 
in the United States. We provided some handouts that I hope are 
in front of you to help explain the backdrop of where we work.
    You'll see in front of you--one is a map of 2019, the 
hydrologic condition in the West for 2019.
    [The 2019 map follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Burman. And the other is exactly a year ago, so 2018.
    [The 2018 map follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Burman. And if you look at the two, what a difference a 
year makes.
    So if you look at the Rio Grande, last year's spring runoff 
was at 18 percent, and this year it's at 160 percent. Last year 
the Colorado River Basin was in its fifth driest year on record 
that we know about, and this year, we're at 144 percent of 
average. I think we even had some snow in June. So this is the 
backdrop we work in. We need, as water managers, to be able to 
deliver water whether it's wet or whether it's dry and there 
can be very large swings in the West.
    So just a thought to keep in mind of like, what is the 
infrastructure we need when it's a dry year like 2018 in some 
areas or it's a wet year, like it can be in 2019 and we'll see 
what we have in store for us in 2020.
    Let me give an example on the Colorado River. Despite a wet 
year, the Colorado River is in its 19th year of drought. And 
despite that, we have consistently delivered our treaty 
obligations to Mexico and we have not yet had to declare a 
shortage in the Lower Basin.
    And what is the reason for that? First, as you saw in the 
spring, a lot of cooperation between the states, the water 
districts and the two countries, a lot of water savings. But 
overwhelmingly we have a robust storage system on the Colorado 
River.
    Federal surface storage on the Colorado River is about 60 
million acre-feet meaning the federal reservoirs can store a 
combined total of four times the Colorado River's annual flow. 
If you compare that to somewhere like California, the 
Sacramento River in Northern California has about the same 
runoff as the Colorado River, only their storage is barely up 
to a year's runoff. So that means, in a time like 2017 which 
was the wettest year on record in California, we had to let 
most of that water go out of the system. And in 2018, which 
started off very dry in California and worked its way up to 
more toward an average year, we weren't able to make 
deliveries. We had to take several months where we had farmers 
who didn't know if they were going to get water or not, 
municipalities who didn't know if they could depend on our 
supplies.
    Storage is absolutely essential. Infrastructure is 
absolutely essential to what we do and how we provide reliable 
water in the system. The investment that's made in the Colorado 
system are the generations that went before us that invested in 
those systems. That's what provided the efficiency, the 
flexibility, the conservation. That's what's increased our 
water supply reliability during this 19-year drought and for 
the future.
    Across the West we look at an all-of-the-above approach. We 
encourage diversity of resources. We have many programs that 
help with that. We view water reuse, water recycling as well as 
groundwater recharge and desalinization as important parts of 
this water supply strategy.
    We'd like to work with the Committee, to keep working with 
you to strengthen these three bills that we're here to discuss 
today, and we'd like to discuss some other WIIN-related 
authorities to secure our water for future generations.
    So, thank you for your time.
    [The prepared statement of Ms. Burman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Absolutely. I am going to do something a 
little non-traditional since we started late. Mr. Noble, I am 
going to wait to have you testify. I am going to let Mr. Brown 
testify and then I am going to let you [motioned to Senator 
Gardner] ask some questions and then we are going to continue 
on with the panel just because he has a hard stop.
    Alright, flexibility is the key to air power we used to say 
in the military.
    Mr. Brown.

STATEMENT OF MARSHALL P. BROWN, GENERAL MANAGER, AURORA WATER, 
           AND ON BEHALF OF THE WATEREUSE ASSOCIATION

    Mr. Brown. Okay, good morning.
    To start, I'd like to thank Chairwoman Murkowski, Ranking 
Member Manchin and members of the Subcommittee for inviting me 
here to speak about these issues today. I appreciate the 
opportunity to represent the City of Aurora and also the 
WateReuse Association who represent over 250 utilities and over 
300 other businesses and institutions across the country that 
implement water recycling.
    Aurora Water is a utility located east of Denver, Colorado. 
We provide drinking water, wastewater and stormwater services 
to a population of over 370,000 people.
    Aurora Water and the WateReuse Association strongly support 
the Drought Resiliency and Water Supply Infrastructure Act, or 
Senate bill 1932, and thank Senators Gardner, Feinstein, 
McSally and Sinema for their leadership on this important 
legislation. Senator Gardner has long been an advocate on 
critical water issues, and we very much appreciate your 
leadership on such.
    Meeting the water needs of a growing community in the arid 
West is challenging. Aurora's water supply infrastructure is 
extensive and complicated. Aurora owns or partners in 12 
reservoirs located throughout about a third of the State of 
Colorado, and we manage and maintain hundreds of miles of 
pipes, have three drinking water treatment plants, as well as a 
reclaimed water treatment facility.
    As most of the water supply is located west of the 
Continental Divide and most of the population is to the east, 
Aurora must transport and store water, including transporting 
over mountain ranges up to 180 miles away before it reaches our 
customers. This requires a large and concerted effort to move 
water through tunnels, pipelines and pumping facilities and 
requires that we build and maintain large reservoirs to 
effectively utilize that supply.
    Senate bill 1932 creates valuable funding programs for 
utilities like Aurora Water to help address the enormous 
capital needs required to build and maintain the infrastructure 
necessary to sustain the growing populations that we have. In 
order to ensure our ability to provide water, we must create 
robust systems that integrate multiple, increasingly complex 
components and technologies.
    For example, Aurora Water has storage capacity to meet 
three years of our annual average demand to help see us through 
variable climate and endemic droughts. This storage is 
integrated into a system that also includes our ability to 
reuse 100 recapture and reuse, essentially, 100 percent of our 
wastewater return flows. We use that for irrigation and to meet 
potable demands.
    While we've invested over $700 million in processes 
including river bank filtration, aquifer recharge and recovery 
and industry leading water treatment that includes advanced 
oxidation in order to create those reuse capabilities, we're 
not done. In order to manage increasingly variable source water 
conditions, we're planning to add over 150,000 acre-feet of 
additional storage in our system. And since we operate in 
essentially a closed loop, we're seeing increasing levels of 
salinity and we know that eventually, probably in the not too 
distant future, we're going to have to start removing the salts 
from that water in order to continue reusing it. Those types of 
needs and projects can benefit greatly from the legislation 
being considered here today.
    While the roles of government agencies may not be exactly 
the same today as they've been in the past, there remains a 
critical need for partnership at a local, state and national 
level. Almost 36 percent of the lands in Colorado are federally 
owned and systems like Aurora's, both our current or existing 
system and future system, are not possible without partnership 
and support.
    So thank you again for allowing me the opportunity to visit 
with you today about how Senate bill 1932 could be hugely 
beneficial to us and assist Aurora Water and other similarly 
situated water providers in meeting these needs into the 
future. This bill goes a long way in providing realistic and 
sustainable funding mechanisms to help us develop or expand 
these complex, multifaceted systems and solutions to address 
those ongoing water needs.
    Thank you again.
    [The prepared statement of Mr. Brown follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Thank you, Mr. Brown.
    We are going to go to Ms. Kassen next, and then we will 
allow Senator Gardner to ask some questions. We are going a 
little out of order here, Senator Risch, because we started a 
little bit late.
    Senator Risch. That is not unusual for this place.
    Senator McSally. Exactly.
    Ms. Kassen.

STATEMENT OF MELINDA KASSEN, SENIOR COUNSEL, THEODORE ROOSEVELT 
                    CONSERVATION PARTNERSHIP

    Ms. Kassen. Thank you.
    I guess the first thing I should say, Chairman, is thank 
you for letting me be on this panel when I don't have a tie to 
Arizona.
    [Laughter.]
    Senator McSally. Absolutely.
    Ms. Kassen. The Theodore Roosevelt Conservation Partnership 
(TRCP) is an alliance of 60 hunter, angler, outdoor recreation 
and science organizations dedicated to ensuring all Americans 
enjoy quality places to hunt and fish. TRCP appreciates this 
opportunity to testify about how to help the West build drought 
resilience in the face of decreasing water supplies and 
increasing demand.
    Well-focused, federal policies and resources will allow us 
to meet a range of water needs. Congress can incentivize water 
conservation, water sharing, innovative technologies and new 
strategies to help build a future with thriving cities and 
rural communities, diversified economies, sustainable 
agriculture and healthy rivers and watersheds that provide 
recreation and ecological benefits to residents and visitors 
alike.
    Hunters and anglers need water in the landscape. Outdoor 
recreation infuses $887 billion into the U.S. economy and is 
especially important for rural America. Fish swim in clean, 
flowing rivers and streams. Migratory birds feed and rest on 
the wetlands along our flyways. Local bird populations nest in 
the riparian corridors.
    TRCP, its partners and other NGOs recognize how many 
interests compete for the West's limited water supplies. Our 
experience shows that cooperation among diverse interests is 
the only path that leads to durable solutions.
    Recently, this Committee helped pass the Colorado River 
DCP--I'll add my voice--an example of basin-wide cooperation, 
thank you.
    An amended version of S. 1932, one of the bills you're 
considering today would build on the success of DCP. I suggest 
several modifications for your consideration.
    First, the Committee should ensure both compliance with 
state and federal laws and the support of the Governor of the 
state for Section 3, Storage Projects, at each step from 
feasibility to construction. This avoids having projects a 
state doesn't support move forward to receive federal funding, 
a scenario that may be more likely to lead to litigation than 
construction.
    Second, we'd ask the Committee to expand the eligible 
projects in Section 3 to projects that store and retain water 
in features of the landscape for later release. Just as 
restoring natural systems increases resiliency and can save 
money by diminishing the effects of coastal flooding, this 
approach can be a powerful tool for responding to drought and a 
strategy to ensure water supplies for cities and agriculture, 
and also maintaining flows and habitat for fish and wildlife.
    Like built water storage, infrastructure retains wet season 
precipitation and releases it during the dry season for use. It 
does so using the landscape. The quintessential Western 
infrastructure which stores 75 percent of the West's water is 
the mountain snowpack, but there are other systems, mountain 
meadows, wetlands, floodplains and riparian aquifers.
    Many groundwater projects in the West already use natural 
infrastructure. One, as part of the Platte River Recovery 
Implementation Program, is the Tamarack State Wildlife Area in 
Eastern Colorado, the other Yuma.
    [Laughter.]
    During spring runoff partners pump water to ponds that then 
let the water seep into the ground and move back to the river 
arriving in late summer and fall to augment low flows. The 
project improves wildlife habitat and contributes a measurable 
10,000 acre-feet of water for recovery of endangered cranes 
downstream in Nebraska.
    Another is the Cochise Conservation and Recharge Network 
along the San Pedro in Arizona, a desert river that supports 
native fish, 300 species of migratory birds and hunters from 
the Clovis people to today's bow hunters. The Cochise partners 
use 6,000 acres of land along 25 miles of river to direct 
stormwater and effluent into catchment basins that allow the 
water to infiltrate, replenishing local groundwater for 
communities and base flows for fish and wildlife.
    Third, S. 1932 authorizes over $1 billion for water 
projects, but one of the most effective and important 
strategies to combat drought and build a more resilient future 
isn't there and that's water conservation and efficiency. The 
bill includes no money for reducing water demand nor for the 
kind of voluntary, temporary compensated water demand 
management activities that will be critical in the Colorado 
River Basin to implement DCP and elsewhere in the West.
    TRCP encourages the Committee, either by reauthorizing 
existing legislation like WaterSMART or through bold, new 
programs, to add funding for conservation and efficiency to 
this package.
    Thank you for inviting me. TRCP looks forward to working 
with you and other Western water interests to make our water 
delivery system sustainable today and for a hotter, drier and 
more crowded Western future.
    My written testimony includes other suggestions, and I'd be 
happy to answer questions.
    [The prepared statement of Ms. Kassen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Thank you, Ms. Kassen.
    Senator Gardner.
    Senator Gardner. Thank you, Chairman McSally, and I hope I 
am not setting a bad precedent for you on the Committee by 
doing this, but thank you. I greatly appreciate it.
    Father Fitzgibbons from Regis University in Denver really 
appreciates this too, so I can catch up with his group as well. 
So thank you.
    I would ask unanimous consent for a number of letters to be 
entered into the record in support of Senate bill 1932 from the 
National Water Resources Association, the Colorado Water 
Congress, the Metropolitan Water District of Southern 
California, the Water Infrastructure Network and others. I 
would just ask they be entered into the record.
    Senator McSally. Without objection.
    Senator Gardner. Thank you.
    [Letters of support for S. 1932 follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Mr. Brown, it is obviously good to see you 
here today. This is your first time testifying before Congress, 
so well done.
    I am thankful that you are here today. Aurora has an 
incredibly diverse water supply system. The Boustead Tunnel is 
a part of that system as well, I believe. Is that correct?
    Mr. Brown. Not our system.
    Senator Gardner. It is the Fry-Ark system, not the Aurora 
system. So, you know, if you ever get a chance to, as I have 
with, I think it was, partners from Aurora standing in the 
Boustead Tunnel in water that was this deep, the coldest water 
you can ever imagine--incredible engineering feat.
    But I know you are here on behalf of the Reuse Association. 
Let's focus on that.
    In the West, permitting for water storage has been 
incredibly expensive. New water storage can take years. You 
mentioned in your testimony that you started planning in 2000 
for a project you hoped to complete between 2050 and 2070. That 
increase of capacity out West for new storage has become 
increasingly difficult. I think those numbers speak for 
themselves.
    How do we then refocus on increasing supply through other 
means, as you did with Aurora and some of the other projects 
like Prairie Water system? Can you walk through the extensive 
reuse system that you have and how that impacts this?
    Mr. Brown. Yeah. The water reuse system we have, obviously, 
wastewater return flows are available year-round. So it's a 
critical supply that doesn't exactly match up with our demands, 
necessarily, and it's also got some challenges associated with 
treatment but provides huge opportunities for a consistently 
available, steady supply.
    Also though, it requires that we dampen the demand 
associated with the supply so that we can meet the needs during 
peak demand periods such as the summer when the supply doesn't 
increase compared to lower demand periods in the winter when 
the supply is still there.
    So our system actually uses a multibarrier approach, with 
very high-quality water, a fairly expensive source of supply, 
and we've shared that supply with some of our partners to the 
south.
    But again, in order to use it effectively, we'll have to 
expand the system in the future to meet increasing wastewater 
return flows and we'll also have to build storage in the system 
in order to store the water when it's available as compared to 
the seasonal demands for the supply.
    So, fantastic opportunity. It gives us the ability to 
recapture, roughly, all of our indoor wastewater return flows, 
but again, in order to utilize those, we have to store some of 
those during the non-peak demand periods to use them during 
peak demands.
    Senator Gardner. Thank you, Mr. Brown.
    Commissioner Burman, obviously great to see you again. I 
have not seen you, I don't think, since the signing of the 
historic DCP. Congratulations. That is a very important 
accomplishment made necessary, as you pointed out, by a very 
historic drought.
    Part of the agreements is studying a demand management 
program, and the basins are looking at that but it is still 
vital for us to focus as well on the supply side.
    How important is it for us to take into account an all-of-
the-above approach as we look at water, not just storage but 
conservation, desalination, recharge to increase the water 
supply in the West?
    Ms. Burman. Senator, it's absolutely critical.
    Communities need to be looking at all of their possible 
water supplies and that is groundwater, that is conservation, 
reuse, desalinization where that's the right thing to do.
    It's creating that redundancy. So if you know in the 
system, surface water might not be there if you have several 
years of drought in a row. You can then turn back and rely on 
that groundwater or have built down your demand.
    Through WaterSMART programs, through Title 16, through 
desalinization, sort of all the programs you're looking at here 
and others, we absolutely believe in an all-of-the-above 
strategy.
    Senator Gardner. Thank you.
    Ms. Kassen, thank you again for being here, thanks for your 
work as well. I am trying to find a solution on the Good 
Samaritan language and hopefully we can have another hearing 
and opportunity on that within Congress.
    The project you identified in your testimony, dealing with 
the Platte River, talking about some of the natural 
opportunities to store water within systems. Could you talk a 
little bit more about how we could do a better job of that in 
the legislation?
    Ms. Kassen. The number one thing would be, and Committee 
staff actually circulated some language along with this draft 
bill with some potential adds with some carefully crafted 
definitions, but Section 3 talks about surface water storage 
and groundwater storage. You could add a definition and add 
natural infrastructure, water storage as well. It would not be, 
I don't think, complicated.
    And in fact, a lot of these projects, and Tamarac is one 
example, there is a pump so there is a piece of built 
infrastructure, but then the rest of the project is natural in 
that it uses the seepage and comes back to the river.
    So a lot of the natural infrastructure projects which are 
measurable are still taking advantage of pieces and using both 
some little pieces of built and a lot of the landscape to do 
the work.
    Senator Gardner. Thank you, Ms. Kassen and thank you, 
Chairman, for the accommodation. Thank you.
    Senator McSally. Absolutely.
    Next I am going to go to Senator Risch for some questions, 
and he will introduce Mr. Hipke and then Mr. Noble, you will 
clean it up.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Well, thank you very much, Madam Chairman.
    I have a bill here that is the Aquifer Recharge Flexibility 
Act. From my friends, none of them seem to be here, but my 
friends from the East Coast don't really understand this. They 
don't understand how important water is to us, and they don't 
understand what a minimal amount of water we get.
    In Eastern Idaho we get about 11 inches total, snow and 
water and not much better upstream where Mr. Hipke is from but 
in any event, we do a lot of different things to use our water, 
to be able to do what we do in Idaho and that is to have a 
state that even though we are owned two-thirds by the Federal 
Government, we are able to do a lot of things with raising 
crops and those kinds of things. But water is absolutely 
critical.
    And one of the things that is relatively recent, and I use 
the word ``relatively,'' is recharge. It is incredibly 
important to us, particularly in Eastern Idaho where we have 
Idaho's Eastern Snake Plain Aquifer which is about the size of 
Lake Erie. Is that right, Mr. Hipke?
    [Mr. Hipke nods head in agreement.]
    Lake Erie is a pretty sizable body of water and so you 
think, well, gosh, we've got that much water, this shouldn't be 
a problem. Well, it is a problem because it is in the aquifer 
and we have become very efficient at drilling wells and taking 
water out of it in order to irrigate and do other things. So it 
is important that we monitor that aquifer and that we recharge 
it where possible, and that is what this bill is designed to 
do.
    Mr. Hipke is in charge of the programs that do the 
recharge, and he has done an excellent job of it.
    But, because as I said, two-thirds of the land is owned by 
the Federal Government and they get kind of cranky when you do 
things that you think need to be done but they don't, 
particularly if they live back East which a lot of them do--it 
is important that we have laws that allow us to do this and 
allow us to do it more smoothly.
    This bill will allow or make it more smooth to cross BLM 
land when a canal already holds an easement. Recharge will take 
place on Reclamation land and Reclamation facilities convey 
non-project water for recharge.
    These are all things that are really important to us. And I 
think Mr. Hipke will be able to tell us how important these 
things actually are for recharging this aquifer.
    So, without further ado, I would like to introduce Mr. 
Hipke, with your permission, Madam Chairman, and he can explain 
to us, if you would, how this bill will provide greater 
flexibility in the use of our beloved federal lands to get 
water to our aquifers.
    Mr. Hipke, the floor is yours.

   STATEMENT OF WESLEY HIPKE, IDAHO MANAGED RECHARGE PROGRAM 
          MANAGER, IDAHO DEPARTMENT OF WATER RESOURCES

    Mr. Hipke. Chairman McSally and Senator Risch, I'm honored 
to testify today on behalf of the Idaho Water Resource Board on 
S. 1570, the Aquifer Recharge Flexibility Act.
    As has been mentioned, I'm the Recharge Program Manager for 
the State of Idaho and, also has been mentioned, I previously 
worked in the State of Arizona for many years on their Managed 
Recharge Program.
    I want to thank Senator Risch of my home State of Idaho for 
his tireless work on behalf of the Board and other states in 
the West on this important legislation.
    Idaho's largest and most productive aquifer is the ESPA, 
and it underlies much of Southern and Eastern Idaho. This 
aquifer has been declining since 1952. These declines have a 
direct impact on both the groundwater and surface water users 
of the area. About one million acres of irrigated agriculture, 
as well as the cities, towns, businesses, industries and homes 
in the region rely on water pumped from this aquifer.
    In addition, the declining spring flows from the aquifer 
have an important, have an impact on about 600,000 irrigated 
acres that divert water from the Snake River. These spring 
flows also provide water for the world's largest concentration 
of commercial fish hatcheries and feed surface water to the 
Mid-Snake and Hells Canyon hydropower complexes which provide 
Idaho with clean, hydroelectric energy.
    Over much of the last two decades, Southern Idaho water 
users have been embroiled in numerous court battles and at 
least four State Supreme Court appeals over this declining 
aquifer.
    In 2015, the State of Idaho and the water users throughout 
the region reached historic agreements to stabilize and rebuild 
this aquifer. As part of those agreements, groundwater users 
collectively agreed to reduce groundwater use by 240,000 acre-
feet annually. In addition, Idaho's legislature tasked the 
Idaho Water Resource Board with developing a program to 
recharge an average of 250,000 acre-feet annually to the ESPA.
    On average about 1.4 million acre-feet in a given year are 
available for the Snake River for aquifer recharge to the ESPA, 
mostly in the winter and during flood control operations in the 
spring.
    The managed aquifer effort is a major undertaking for the 
State of Idaho. The state is committed to constructing the 
required infrastructure needed to accomplish these goals, 
having invested nearly $20 million on these improvements to 
date. Since 2016, Idaho has recharged over 1.2 million acre-
feet into the ESPA. Groundwater users have recharged an 
additional 400,000 acre-feet during that time--all record 
setting accomplishments for the State of Idaho. But more must 
be done to restore this aquifer and other aquifers in the 
state.
    Based on studies conducted by the Board, many optimal ESPA 
recharge sites either require the use of: (1) federally owned 
property to conduct the recharge activities, (2) existing 
irrigation canals that cross federal lands where the easement 
specifies a purpose other than aquifer recharge, or (3) canal 
systems in federal ownership by the Bureau of Reclamation where 
Congressional authorization did not include aquifer recharge.
    By utilizing existing water infrastructure, including those 
lands and canals under federal ownership to recharge our 
aquifers, we can optimize the use of these systems for multiple 
uses and benefits while maintaining the cost of aquifer 
recharge to affordable levels. However, obtaining these 
necessary federal authorizations or permits has been one of our 
main challenges.
    S. 1570, if enacted, would help provide greater flexibility 
in the Board's effort to recharge the ESPA and other aquifers 
in Idaho. This bill would authorize Reclamation and other 
federal agencies to allow the use of existing easements and the 
excess capacity in federally owned canals to deliver recharge 
water to the aquifers with a minimum of red tape, all 
consistent with state water laws and policies.
    In conclusion, managing declining aquifers is a critical 
issue for most Western states. Idaho is at the forefront in 
developing large-scale managed aquifer recharge to actively 
manage their aquifers. The enactment of S. 1570 will help Idaho 
and other Western states to use managed aquifer recharge as a 
key tool in dealing with this critical issue. Combined with the 
other water resource bills being considered here today, Idaho 
and the West will be provided additional strategic tools that 
would encourage partnerships and investment in new water 
storage, aquifer recharge, reuse, recycling, desalinization and 
our aging water delivery infrastructure.
    Again, thank you very much for this opportunity to testify 
on behalf of the Idaho Water Resource Board in support of this 
important legislation and I would stand for any questions you 
may have.
    [The prepared statement of Mr. Hipke follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Risch. Thanks, Mr. Hipke. Thank you.
    Senator McSally. Great, thank you. We appreciate it.
    Mr. Noble.

STATEMENT OF WADE NOBLE, ATTORNEY FOR YUMA (AZ) AREA IRRIGATION 
DISTRICTS, NOBLE LAW OFFICE, FAMILY FARM ALLIANCE AND NATIONAL 
                  WATER RESOURCES ASSOCIATION

    Mr. Noble. Chairman McSally, Senator Risch and the other 
unseen but appreciated members of the Water and Power 
Subcommittee, thank you for the opportunity to testify on the 
Water Supply Infrastructure Rehabilitation and Utilization Act, 
S. 2044. This legislation is important to Western irrigated 
agriculture and our whole nation.
    And Senator McSally, if you'll permit me for just a 
deviation in my prepared remarks, we express to you our 
appreciation for the work that you have done. Personally, we 
had the opportunity to sit down and discuss this problem. You 
came to Yuma. You observed. You listened. You learned. You 
acted. You exercised leadership. We thank you for that.
    My name is Wade Noble. I am from Yuma, Arizona. Yuma is at 
the southern end of the Colorado River. Yuma County agriculture 
provides the winter vegetables to 85 percent of the United 
States and Canada.
    Across the West, Bureau of Reclamation facilities are, on 
average, 50 years old with some facilities 100 years old. In 
general, irrigation districts operate in maintained 
Reclamation-owned facilities. These are transferred works. 
Reclamation retains ownership but transfers routine operation 
and maintenance of the irrigation systems and the extraordinary 
maintenance and capital improvements of facilities and 
infrastructure to the district.
    In some instances, there is an additional layer. 
Reclamation contracts with one district as the responsible 
party for the routine operation, maintenance and extraordinary 
maintenance and capital improvements of a shared, transferred 
work. The other irrigation districts sharing the facility or 
system become funding parties. They are not directly 
responsible for completing routine and extraordinary 
maintenance and capital improvements, but they are financially 
responsible for the work.
    Imperial Dam is an example of a shared Reclamation 
transferred work. The example shows the financial impacts to 
the funding party irrigation districts as a result of the 
extraordinary maintenance and capital improvements needed on 
aging infrastructure. Imperial Irrigation District (IID), 
located in Imperial County, California, and diverting almost 
three million acre-feet of Colorado River water for agriculture 
and Imperial County cities and towns is the responsible party 
for Imperial Dam. IID is contractually obligated to perform all 
routine and extraordinary maintenance at the dam. However, the 
Arizona and other California irrigation districts sharing 
Imperial Dam are obligated to pay their portion of the costs.
    In the next ten years the districts will spend over $50 
million on extraordinary maintenance and capital improvements. 
Because the funding parties are not the responsible party, they 
have less funding or finance options. There is difficulty in 
obtaining grant monies or seeking traditional financing. 
Bonding is especially difficult for non-responsible parties and 
smaller districts. This leaves most districts with only two 
options, increasing assessments or burning through reserves.
    The aging infrastructure account addresses extraordinary 
maintenance challenges and creates a general fund for operating 
entities and project beneficiaries seeking funds.
    While my testimony is focused on Section 2 of S. 2044, it 
is not meant to ignore the other two substantive sections.
    Section 3--authorization of appropriations for the 
Reclamation Safety of Dams Act--is important to address Western 
and national needs of water infrastructure. Appropriation of an 
additional $550 million for safety of dams will ensure 
Reclamation can financially address dam infrastructure woes, no 
pun intended.
    Section 4--Review of Flood Control Curves Pilot Project--is 
important to Western and nationwide water managers. It will 
provide tools and flexibility to flood control and reservoir 
projects and allow managing entities to react to ever changing 
climatic conditions. In Arizona, our friends and colleagues at 
the Salt River Project would benefit in the operation of 
Roosevelt Dam. If these pilot projects are successful, it will 
change how we manage systems and create programs resilient to 
climate variability.
    Considered as a whole, S. 2044 will have significant 
positive impact on water infrastructure needs and water 
resource management.
    Again, we appreciate the opportunity to testify to the 
Subcommittee. It has been a privilege and a pleasure. I am 
prepared to answer questions, but the easy ones, please.
    [The prepared statement of Mr. Noble follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Thank you, Mr. Noble.
    We will now turn to questions, and I will start it off.
    You just explained how the challenges that we have with 
examples like Imperial Dam and others where those funding 
partners don't have any other choice but to repay in one year, 
pay back for any investment in capital improvements. You shared 
that in your written and your verbal testimony.
    Can you further explain why some of the other options that 
others may have for debt financing don't work or are too 
expensive for districts like the Wellton-Mohawk or Yuma Water 
Users' Association in cases like this?
    Mr. Noble. Sure, thank you, Senator.
    The traditional other options available include such things 
as private financing, borrowing or bonding. Those are simply 
not available to smaller districts.
    If you use private financing, they want collateral. As the 
funding parties, they don't have access to the collateral and, 
therefore, they can't pledge it. Private financing is often 
much more expensive as the interest rate is usually higher.
    If we turn to bonding, that can be quite expensive. Just 
the cost of implementing the bond measure is very high. In 
addition, there's the problem of that interest rate is higher 
and you have to commit reserves which generally are not 
sufficient to cover the entire bond.
    So, those two options, just not available.
    Senator McSally. Great, thanks.
    Now speaking from your role at NWRA and Family Farm 
Alliance, how common is this challenge of access to capital for 
water managers around the West?
    Mr. Noble. Well, in response, being prepared for this 
particular item, we chatted with several people involved 
throughout the West and we find it's very common that there are 
many situations where they simply cannot privately fund or bond 
the things that need to be done. It's not that they don't or 
that they never have, it's just that it is widespread.
    Senator McSally. Commissioner Burman, do you have anything 
to add on that?
    Ms. Burman. No. I would say that this has been a long 
discussion in the water community about how to finance, you 
know, improvements to aging infrastructure.
    And so, we tend to work with the Committee, with you and 
with our partners on all the ideas that can work there.
    Senator McSally. Great, thanks.
    And as you know, Commissioner Burman, our bill is intended 
to improve how the Bureau's extraordinary maintenance authority 
is utilized.
    Do you know, since enactment in 2009, how many times 
Reclamation has used its extended repayment authority for 
extraordinary maintenance projects at transferred works?
    Ms. Burman. I had my staff pull that up, and we came up 
with 19 instances of where we've used that in the past.
    Senator McSally. Can you walk me through the current 
process for seeking funding and extended repayment for a 
project, what avenues do Congress or customers have to weigh in 
on that process?
    Ms. Burman. So we have a directive in standard which is 
really our rules of how this works, but really, it's about 
approaching your local office of Reclamation, approaching your 
area office, talking it through, what is needed. On the 
official side, there needs to be a repayment contract that's 
signed. But I would say, you know, that can be all worked 
through.
    The most significant hurdle is usually appropriations which 
it is for all the things we do and when you work with an area 
office about a project that's coming up, if it's going to 
happen under this authority, then under the authority from 
2009, then it has to be through appropriations. So you are in 
the process and competing with all the other projects out there 
that are subject to appropriations.
    Senator McSally. Great, thanks.
    Now I want to shift to safety of dams.
    It is my understanding at some point there had been 
discussion as to whether some of the major repair items at the 
Imperial Dam qualified under safety of dams. Are large 
diversion dams like Imperial eligible for safety of dams if 
they meet other criteria?
    Ms. Burman. If they meet other criteria, all our dams, both 
large and small, have the ability to be under the safety of 
dams program.
    Senator McSally. Okay, great.
    Part of the reason that we included this increase in the 
safety of dams program is to ensure that there is enough cap 
room to accommodate any new projects added to the inventory, if 
needed.
    We don't need to hash this out now, but are you willing to 
commit to working with me to take another look at whether 
Imperial Dam is one such project?
    Ms. Burman. We would certainly work with you and work with 
the Committee and with Mr. Noble and his clients to move 
forward and look at Imperial Dam.
    Senator McSally. Okay, great. Thank you.
    I now want to talk about supply portfolio.
    Mr. Brown, hearing your testimony, the diversity of water 
supply infrastructure you are pursuing is something that stuck 
out. One of the important things that S. 1932 does is take a 
similar broad approach that puts multiple water infrastructure 
options on the table.
    Can you talk a little bit about the importance of this 
diversified approach to infrastructure for your community and 
the strengths and weaknesses of the different components?
    Mr. Brown. Yes, Senator, thank you.
    Again, water supply in the arid West is fun and 
challenging. It's not a very common resource anymore. So, the 
days of being able to find a supply that's fairly pristine and 
putting it through a treatment plant and then delivering it to 
customers, those days are pretty much gone.
    All the supplies, the quality of the supplies is 
compromised, whether you look for new sources of supply or 
whether you're looking at reuse projects.
    And so, technologies are constantly evolving and giving us 
new opportunities to deal with the water quality challenges. 
And then again, the seasonal and the annual variabilities in 
the supply also present some significant challenges. The 
supplies are not always available. At the same time, the 
demands are there.
    So we have to build systems now that are extremely robust, 
that are multifaceted and take advantage of a bunch of 
different technologies, take advantage of different types of 
storage.
    There was a little bit of testimony talking about the 
challenges, and the opportunities with storage look a little 
different too. We can't go build storage like we used to be 
able to so we have to be more sensitive there. Underground 
storage is a great option but underground storage by itself, at 
least in multiple settings, doesn't work without surface 
storage integrated with the underground storage to be able to 
get the water in and out of the systems.
    And so, really, we have to now as systems grow and expand 
and/or progress to meet existing demands, we have to have 
multiple tools in the tool box that afford us the opportunity 
to take advantage of emerging technologies, to take advantage 
of outside the box storage opportunities and create systems 
that are robust. We can't afford to let any of our water go 
wasted anymore or go unutilized when we have that water in our 
system.
    Senator McSally. Great, thanks, Mr. Brown.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and I thank the 
witnesses for being here.
    Ms. Kassen, when you said there is a lot of hot, dry and 
more crowded West, you couldn't have been talking more 
specifically about the Pacific Northwest because that is 
exactly the way we feel.
    The most recent seasonal drought map definitely put us in 
the bullseye as far as that brown area, and it is no secret 
that this is an overlay to some of the challenges we face in 
the fire season as well.
    [The map referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. So I am very concerned that we continue 
to adopt strategies, you outlined some like the WaterSMART 
programs and things we were able to help integrate into the 
Yakima Basin program.
    Mr. Hipke, is that the right pronunciation, Mr. Hipke?
    You talked about the aquifer recharge, and so, in concept, 
I certainly support Senator Risch's bill.
    Why, at least for areas like the Pacific Northwest, 
shouldn't we be focusing more on recharge and holistic 
integration plans like we have been able to successfully do in 
Yakima?
    By that I mean, if you are going to have warmer and drier 
conditions, less snowpack, but you are still going to have 
water, recharging those aquifers is like an easy layup and then 
coordination on the conservation side and smart strategies, 
making best use of that, also seem to just go hand-in-hand.
    Do you have any comments about the recharge? You didn't 
specifically call that out.
    Mr. Hipke. Absolutely.
    I've been doing managed recharge for over 25 years now. And 
so, I'm a big fan of that.
    And having said that, having worked extensively in two 
different states now and seeing the broad differences between 
them, I am an extreme fan of adaptive management and what's 
been discussed here.
    We need a lot of tools in the tool box because the 
situation is changing rapidly. It's not a one-size-fits-all.
    Like in Idaho for the ESPA, recharge is a very good tool 
that we use, and that's not the only tool in that area. In 
other areas recharge might not be an option and then we need to 
look at storage because, as you mentioned, there's a lot of 
demand and the supply is much more variable. And we need to be 
flexible enough to take advantage of it when it's there.
    Senator Cantwell. Ms. Kassen, do you have ideas about what 
we could do to get better, let's see, evangelizing of these 
cooperative programs?
    I almost still see us in, kind of, a divided universe here. 
There are those, definitely in the Pacific Northwest, that 
believe in that cooperation, coordination, very innovative, 
very holistic. And then I see other parts of the country who 
are just continuing to fight over water.
    What can we do to better evangelize and get people to adopt 
these approaches?
    Ms. Kassen. I would say a couple of things.
    First of all, I think the Colorado River Basin--we feel 
like we're doing cooperation too. So there are other----
    Senator Cantwell. Good, good. Go ahead.
    Ms. Kassen. ----there are some places outside of the 
Northwest.
    Senator Cantwell. Good.
    Ms. Kassen. But one thing to think about in terms of 
increasing retention in the landscape and improving storage in 
non-traditional ways is there's a project that TRCP's partner, 
Trout Unlimited, worked on in Montana on Nine Mile Creek which 
was a drainage that had been adversely affected by legacy 
mining and they were in there to do restoration.
    But healthy landscapes retain more water, healthy riparian 
areas, intact systems and they actually, after they spent ten 
years doing the restoration, they got the University of Montana 
to come in and measure the amount of additional water flow that 
was coming from that restored landscape into the stream.
    I mean, it's measurable quantities of water that you can 
achieve just like frequently in some kinds of water supply 
projects and water management, the environment gets to be like 
a secondary beneficiary. In this restoration project water 
storage and supply was a secondary benefit of the restoration. 
So it goes both ways. And I think talking about the success 
stories is certainly one way to evangelize.
    Senator Cantwell. I also think having robust federal 
support programs for it so that people are incentivized on 
smart water or on restoration and, you know, doing a better job 
on coordination.
    One of the reasons we fought so hard on the fire bill to 
get new fire funding fixes is because we were doing 
unbelievable stream restoration work and then we would have a 
fire come through and knock it out. So the point was, why?
    So we have to get this coordinated and the challenges we 
face are becoming greater.
    Thank you, Madam Chair. Thanks to the witnesses.
    Senator McSally. Thank you so much.
    We did have votes called, nearly 50 minutes ago, so I will 
be the last there.
    I want to ask one more question since you all made the trip 
out here.
    Mr. Noble, again, as you know the extraordinary maintenance 
account created in S. 2044 only requires Reclamation to take 
requests for funding for projects that are transferred works 
and not those that are operated by Reclamation.
    I know this is not the case for Yuma, but in your 
experience, which is vast, are districts who are responsible 
for O&M at reserved works facing similar challenges with 
repayment?
    Mr. Noble. Senator McSally, yes, they are. We have observed 
that throughout the West. There are challenges.
    The difference between reserved works and transferred 
works, as far as funding, is most often there is a sharing 
between the district and Reclamation as to the cost of the 
repairs or work that's being done, but Reclamation has the 
opportunity to appropriate for their share of the work.
    Senator McSally. Great, thank you.
    Would it make sense for us to add that to our bill?
    Mr. Noble. Yes, it would.
    Senator McSally. Reserved works?
    Mr. Noble. Yes.
    Senator McSally. Okay, great, we might follow up on that 
with you.
    Commissioner Burman, how do you feel about that?
    Ms. Burman. The more flexibility we have, the easier it is 
to work.
    Senator McSally. Great, thank you.
    I know we have a number of questions that we also still 
want to ask, and I know other members will probably then want 
to ask for the record. I really would appreciate if you all 
were willing to answer those questions as they are submitted 
for the record.
    I really appreciate everyone coming here today and, again, 
thanks for your patience and flexibility.
    It was important to hear your testimonies on these pending 
bills as we move them forward to address this important issue 
of our water infrastructure and water investments for the 
future.
    These questions may be submitted for the record before the 
close of business on Friday, and the record is going to remain 
open for two weeks. We ask that you respond in writing and they 
will be made a part of the record.
    Again, thank you for coming today. The hearing is now 
adjourned.
    [Whereupon, at 11:48 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                              [all]

</pre></body></html>
